HHS/OIG - Audit, "Results of Survey and Certification Review," (A-05-00-00020)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Results of Survey and Certification Review," (A-05-00-00020)
May 31, 2002
Complete
Text of Report is available in PDF format (888 kb).  Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of this review was to determine whether survey and certification
costs were properly allocated between Medicare, Medicaid, and State licensing
programs.  We found that, rather than establishing an equitable basis for
allocating costs among benefitting programs, the allocation of survey and certification
costs was based on predetermined historical percentages. During the budgetary
process for each State, the percentages were developed by the Centers for Medicare
& Medicaid Services (CMS) staff based on their knowledge and expertise of
Federal and State program requirements. Since these allocation percentages were
established years ago, there was no supporting documentation to substantiate
these percentages.  We recommended that CMS consider requiring States to
develop and implement a system which will provide assurances that survey and
certification costs are equitably allocated among benefiting programs.